OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/JORDAN’S 

FISCAL REFORM PROJECT II 

AUDIT REPORT NO. 6-278-14-003-P
DECEMBER 11, 2013 [Revised]




CAIRO, EGYPT

Office of Inspector General


December 11, 2013

MEMORANDUM

TO:        	          USAID/Jordan Mission Director, Beth Paige

FROM: 	               Regional Inspector General, Catherine M. Trujillo /s/

SUBJECT:	             Audit of USAID/Jordan’s Fiscal Reform Project II (Report No. 6-278-14-003-P)
                      [REVISED]

This memorandum transmits the revised final report on the subject audit. In finalizing the audit
report, we considered your comments on the draft report and have included them in Appendix II.
The original audit report has been revised to clarify our evaluation of management comments.
These revisions do not impact the report’s recommendations or the mission’s management
decisions thereon.

This report contains five recommendations to help the mission improve the overall effectiveness
of the Fiscal Reform Project II. The mission agreed with two recommendations, partially agreed
with one, and disagreed with two. After reviewing information that the mission provided in its
response to the draft report, we acknowledge that the mission made management decisions on
all recommendations. We disagreed with the management decision on recommendations 4 and
5; since the mission has stated that it will not implement the recommendations, we consider final
action has been taken on recommendations 4 and 5 effective the date of this report. Final
action has not been completed on recommendations 1 through 3.

Please provide the Audit Performance and Compliance Division with the necessary
documentation to achieve final action on all recommendations.

We also considered the mission’s response to the other matter reported, which it disagreed
with.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1/A Nady El-Etisalat St., off El-Laselki St.
New Maadi
Cairo, Egypt
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Mission and Contractor Took Initiative to Scale Back Activities .............................................. 4 


     Project Expanded Beyond Original Design ............................................................................. 5 


     System for Financial Management Information Was Behind Schedule and Unlikely to Be 

     Sustainable ............................................................................................................................. 6 


     The Mission Needs to Make a Decision if Further Assistance to Jordan Customs is 

     Needed.................................................................................................................................... 7 


     USAID/Jordan’s Performance Monitoring Was Inadequate .................................................... 9 


     Mission Did Not Document Project Experience to Guide Design of Follow-on Project......... 10 


     Mission Did Not Manage Trade and Investment Funds Effectively....................................... 11 


Other Matter

     Acquisition Regulations Requirements Were Not Documented Clearly ................................ 14 


Evaluation of Management Comments................................................................................... 15 


Appendix I—Scope and Methodology .................................................................................... 18 


Appendix II—Management Comments ................................................................................... 20 



Abbreviations

The following abbreviations appear in this report:

ADS              Automated Directives System 

CDCS             Country Development Cooperation Strategy 

COR              contracting officer’s representative 

DAI              Development Alternatives Inc. 

FRP I and II     Fiscal Reform Projects I and II 

GFMIS            Government Financial Management Information System 

PMP              performance management plan

PPP              public-private partnerships 

SUMMARY OF RESULTS 

Although the Jordanian Government’s debt as a percentage of gross domestic product
decreased during the past few years, reforms in the national government and economic
challenges necessitate further fiscal restraint and increased revenue to keep that debt at
“acceptable” levels, according to USAID. To help the government, USAID/Jordan launched the
Fiscal Reform Project II (FRP II), which provides technical assistance to the Ministry of Finance.

On October 30, 2009, the mission signed a 5-year, $38.5 million time and materials task order
contract with Development Alternatives Inc. (DAI) to carry out the project. The contractor was to
implement a variety of activities under five core objectives with the goal of achieving
macroeconomic stability and economic growth through improving the Jordanian Ministry of
Finance’s public financial management and fiscal policy. The core objectives are to:

1. 	 Improve efficiency of public resources through stronger public financial management.

2. 	 Implement a results-oriented government.

3. 	 Improve revenue administration and collect more revenue.

4. 	 Adopt resource-saving reforms through sound policy analysis initiated from the Ministry of
     Finance.

5. 	 Increase efficiency in trading across borders.

As of July 16, 2013, the mission had increased the contract ceiling to $43 million, obligated
approximately $40.7 million, and disbursed $32.5 million for the project.

The Regional Inspector General/Cairo conducted this audit to determine whether
USAID/Jordan’s Fiscal Reform Project II was achieving its main goals of macroeconomic
stability and economic growth through improving the Jordanian Ministry of Finance’s public
financial management and fiscal policy.

The project was partially meeting its goals. People at the Ministry of Finance and other
counterparts said FRP II has provided valuable technical assistance and analysis. For example:

	 FRP II’s energy team hired short-term technical advisers and consultants to prepare several
   studies and a plan for the Ministry of Energy and Mineral Resources to develop a new
   energy strategy. An updated strategy could help solve the energy crisis, which started three
   years after the program began.

	 FRP II’s advisers helped build macroeconomic tools that should help develop strategies for
   better fiscal management.

	 Auditors for the Jordanian Government are being trained on best practices and international
   standards for government performance audits to help build trust and accountability within
   the Government.




                                                                                                1
	 The Jordanian Government is adopting a government-wide financial information system so
   all ministries and agencies are on the same computer platform.

	 Assistance to Jordanian Customs has helped increase efficiency and reduce time to clear
   imports and exports.

Also to its credit, the mission took action in areas where reforms were stalled. The FRP II team
responsible for advising the Income and Sales Tax Department had a contentious relationship
with the department’s director general, which resulted in scaling back assistance because of the
lack of commitment to reform. FRP II’s new chief of party recognized the difficulty in providing
additional assistance to the General Budget Department to make more reforms with results-
oriented budgeting. Therefore, the mission and the contractor scaled back some activities (page
4).

Despite these successes and proactive measures, the audit identified the following ongoing
problems.

	 FRP II has expanded beyond the original intent of fiscal reform (page 5). The project has
   increased the number of counterparts from just one—the Ministry of Finance—to several
   including the Ministry of Public Sector Development, the Ministry of Energy and Mineral
   Resources, and nonministerial offices and organizations.

	 The sustainability of the government’s system for financial management information was
   uncertain (page 6). FRP II was staffing and supervising the project management office at the
   Ministry of Finance, which was supposed to oversee the implementation of the system
   before the project took it over.

	 The mission needs to determine if further assistance to Jordanian Customs is needed
   (page 7). Customs has received assistance almost continually from three previous USAID-
   funded programs since 1998.

	 USAID/Jordan’s performance monitoring was inadequate (page 9). Unsupported results
   were found in the contractor’s performance management database.

	 The mission did not document project experience to guide the development of a follow-on
   project (page 10). A final report for the previous project, FRP I, could not be found in the
   official contract files or in USAID’s electronic Development Experience Clearinghouse.
   Additionally, the mission had not conducted a midterm evaluation of FRP II, as required.

	 The mission did not manage trade and investment funds effectively (page 11). FRP II
   received funding from two program areas: trade and investment, and macroeconomic
   foundations for growth. Obligations and disbursements of funds for the trade and investment
   program area exceeded amounts that supported this sector.

	 The mission did not document requirements for using other than full and open competition
   (page 14). The Acting Assistant Administrator approved an action memorandum allowing
   the mission to increase the contract ceiling by $4.5 million, but the action memo did not
   document a key assumption—that FRP II would be impaired without the additional funding.




                                                                                              2
To address these problems, this report includes five recommendations. We recommend that
USAID/Jordan:

1. 	Require DAI to prepare a sustainability plan so the Ministry of Finance will be able to
    continue the project management office without continued support from USAID/Jordan
    during any new follow-on or stand-alone project (page 7).

2. 	Adopt USAID’s standardized mission order on performance monitoring earlier than
    December 10, 2013; establish penalties for noncompliance with the mission order; and
    inform all individuals responsible for performance monitoring of their responsibilities and the
    repercussions for noncompliance (page 10).

3. 	 Perform an evaluation or assessment that covers the remainder of FRP II’s implementation
     and looks at previous assistance, accomplishments, and lessons learned from other
     USAID/Jordan projects to provide a vision and design for any new fiscal reform or other
     related project after FRP II ends (page 11).

4. 	 Deobligate $3,727,670 of funds from the trade and investment program area that will not be
     spent for trade-related activities, and reprogram the funds as necessary (page 13).

5. 	Implement procedures to allocate disbursements that match the nature of the expense
    (page 13).

The details of our audit findings are in the sections that follow. The audit’s scope and
methodology are described in Appendix I. Our evaluation of management comments is on
page 15, and the full text of management comments, without attachments, is included in
Appendix II.




                                                                                                 3
AUDIT FINDINGS

Mission and Contractor Took
Initiative to Scale Back Activities
FRP II established independent teams to work with certain counterparts in the Jordanian
Government. Two of those teams were dedicated to work with the Income and Sales Tax
Department and the General Budget Department. The goal of providing assistance to the tax
department was to improve taxpayer compliance and the department’s efficiency, while
assistance to the budget department was to facilitate government-wide implementation of
results-oriented budgeting, which helps governments plan for and administer funding. DAI
developed activities and annual plans involving these departments to help accomplish the
project goals.

As of July 2013, the mission had started to reduce these activities. The contracting officer’s
representative (COR) and the chief of party said assistance to the two departments had reached
a point of diminishing returns and that the funds could be better used to advance other
components. As of January 2013, the project had already spent about $12 million, more than
40 percent of its funding on these two departments. Despite this investment, results have not
been commensurate with project plans. In the case of improving taxpayer compliance, the
number of reported delinquent taxpayers increased from 101,330 in the project’s first year to
126,605 in the third year.

Several factors contributed to the decision to scale back assistance. The first was willingness;
the COR said the success of interventions relied heavily on the counterpart’s political will and
support to implement recommended changes. USAID had already provided the tools and
training to help improve tax collection, the COR added, and it was now up to the department to
carry out these new practices.

The second contributing factor was the counterpart’s capacity and readiness to change.
Changes needed time to take hold within the ministries, and the chief of party decided that
adding additional resources would not necessarily expedite progress since the counterparts did
not have the capacity to absorb all the information. Drawing upon his experiences with results-
oriented budgeting in Chile, he explained that introducing such a large-scale change required a
significant amount of time.

The third factor was friction. The FRP II team responsible for advising the Income and Sales
Tax Department had a contentious relationship with the department’s director general, which
resulted in scaling back assistance because of the lack of commitment to reform. And the last
factor was the counterpart’s lack of authority to collect taxes. Both the Income and Sales Tax
Department and the General Budget Department needed certain laws to take effect to facilitate
the planned changes.

Limiting assistance before a project ends does not mean that the previous work with these
counterparts was wasted. This is particularly true in the case of implementing results-oriented
budgeting. According to a study done by the German development organization Gesellschaft für
Internationale Zusammenarbeit:




                                                                                              4
          [E]xperiences [have] shown that results orientation is often integrated at the
          budget-planning stage, but not during budget execution . . . Consequently, even
          the partial implementation of the results-oriented approach can produce added
          value.

By scaling back operations, the project will be able to direct funds to other areas where
additional assistance is needed.

Project Expanded Beyond Original
Design
USAID/Jordan’s contract with DAI identifies Jordan’s Ministry of Finance as the main entity to
receive technical assistance and lists improved economic opportunities as the project’s main
strategic objective. This objective is further described in the mission’s Strategic Statement
Jordan 2007-2011, the predecessor to the current Country Development Cooperation Strategy
2013-2017 (CDCS).

By Year 4, the project had expanded in scope and was assisting three main entities: the Ministry
of Finance, the Ministry of Public Sector Development, and the Ministry of Energy and Mineral
Resources. Other counterparts include the Audit Bureau, the Economic and Social Council, and
journalists.

The expansion has made the project’s objectives unclear. The new CDCS identifies three main
development objectives with ten intermediate results. Given these updated objectives, it
appears FRP II is now addressing two of the three objectives and four of the ten intermediate
results. The project was not, as the Agency’s Automated Directives System (ADS) instructs,
being selective and focused on which ministries and organizations should receive technical
assistance.1

The mission expanded the project’s scope in response to economic and political conditions in
Jordan and across the region.

	 Starting in early 2011 widespread antigovernment protests and demonstrations erupted in
   the Middle East, a period referred to as the Arab Spring. In Jordan, the government
   responded by implementing reforms meant to increase transparency and accountability. To
   support the government’s efforts, the mission expanded FRP II’s scope to work with the
   Ministry of Public Sector Development and the Audit Bureau.

	 Before 2011, Jordan had a cheap supply of natural gas from Egypt to generate electricity.
   Terrorists in the Sinai attacked the pipeline carrying the natural gas, however, and
   interrupted the supply. This in turn caused Jordan’s National Electric Power Company to
   purchase alternative fuels for electricity production, such as expensive diesel gas, at higher
   prices on the international market, thus precipitating an energy crisis. Again, to help Jordan
   address these problems, the mission expanded FRP II’s scope to assist the Ministry of
   Energy and Mineral Resources.




1
    ADS 200.3.1.3, “Apply Selectivity and Focus.”



                                                                                               5
	 After years of starts and stops by the mission and the government to coalesce on public-
   private partnership (PPP) initiatives, the mission said the Jordanian Government indicated in
   August 2012 that the Ministry of Finance would establish an office that would work with
   USAID on the initiatives. To make this happen quickly, USAID/Jordan modified the FRP II
   contract and charged DAI with implementing PPP activities on top of its other objectives.

As a result of all these events, FRP II was supporting development objectives that were never
part of the original plan. Unless USAID/Jordan designs projects that are more selective and
focused, it runs the risk of being too dependent on only one contractor to achieve the
development objectives and intermediate results in the CDCS. DAI has been flexible and
successful in meeting the demands of USAID/Jordan. However the FRP II contract ends in
2014, and the mission has yet to identify how the evolving activities will be carried out under
new projects.

Because less than a year remains on DAI’s contract and the mission has no other
implementation mechanism in place to continue FRP II’s activities, we do not make any
recommendations directly for this finding. Instead, we make Recommendation 3 on page 11 to
address the issue identified here.

System for Financial Management
Information Was Behind Schedule
and Unlikely to Be Sustainable
According to ADS 200.3.1.5, “Build in Sustainability from the Start,” the goal of development
cooperation is “to enable developing countries to devise and implement their own solutions to
key development challenges.” Among other things, sustainability demands that implementers
“build the skills and capacity of local stakeholders critical for maintaining gains after the program
or project ends.”

DAI’s contract lists the implementation of the Government Financial Management Information
System (GFMIS) as a major activity of FRP II. The contract also calls for continuing activities
begun under FRP I (implemented from 2006 to 2009 by BearingPoint Inc.), such as helping
“train [Ministry of Finance] and other ministries’ budget-management staff and oversee the work
of the firm executing the [Ministry of Finance’s] contract to implement a [GFMIS].”

The system is only 57 percent complete. According to DAI, GFMIS was functioning in
57 percent—or 45 out of 79—of targeted government offices as of April 2013. This is 3 years
later than the date set for implementing the system.

The project fell behind schedule for two reasons. First, the number of government offices using
GFMIS increased from original estimates because the Jordanian Government wanted to have a
uniform system used by all ministries and offices. In response, DAI extended the assistance.
Second, in DAI’s Year 1 annual report for FRP II, it described problems encountered between
the GFMIS system implementer and the Ministry of Finance project team. They included
mistrust and significant delays for what was supposed to be a 30-month implementation
contract that started in 2008 under FRP I and was scheduled to end in 2010.

Because of the delays, DAI assumed management of the project management office overseeing
the implementation of the system, and staffed 9 of 49 positions (18 percent). DAI also employed
the director of the project management office. After DAI’s contract ends in 2014, the director and



                                                                                                   6
staff that it employs are scheduled to leave and turn the system over entirely to the Ministry of
Finance. DAI had not established a sustainability plan to ensure a smooth transition.

As a result, it was unclear whether GFMIS would last after FRP II ends. The Jordanian
Government might ask USAID/Jordan to continue providing assistance, possibly under another
multiyear award, costing the U.S. Government several million dollars more before Jordan has a
fully functioning system it can manage.

   Recommendation 1. We recommend that USAID/Jordan require Development
   Alternatives Inc. to implement a sustainability plan so the Ministry of Finance will be able
   to continue the project management office without continued support from
   USAID/Jordan.

The Mission Needs to Make a
Decision if Further Assistance to
Jordan Customs is Needed
ADS 200.3.1.3, “Apply Selectivity and Focus,” says the Agency should “invest resources in
countries, sub-national regions, or sectors likely to have the greatest impact on a particular
development objective.” Applying this guidance at the mission level means that USAID/Jordan
needs to align future initiatives with strategic goals established in the new CDCS and design
activities that will achieve the greatest results with available resources.

To meet development objectives, USAID/Jordan and DAI designed a work plan for FRP II that
included a dedicated team working with Jordanian Customs to increase efficiency in trading
across borders. Implementation of activities with Customs generally has been positive.
Achievements include:

	 Streamlined procedures. Before FRP II, customs operations were not integrated and did not
   operate efficiently. To clear imports, commercial brokers had to file paperwork with
   numerous government agencies not necessarily located near one another. The process was
   time-consuming. FRP II’s assistance helped improve the relationship between Customs and
   other government agencies and streamlined one-stop-shopping procedures, known in
   international customs circles as single-window procedures.

	 Implementation of risk-based inspection techniques. FRP II helped implement and refine
   criteria to label and categorize imports into groups that need to be inspected and those that
   can be cleared without inspection.

	 Sustained Golden List participation. FRP II and Customs continued the practice of advance
   screening of qualified companies. Those companies were put on what Customs calls the
   Golden List and given preferential treatment when importing goods.

	 Implementation of pilot initiatives for advance ruling and prearrival clearance processes.
   Although the accomplishments of these processes cannot be fully quantified, traders and
   customs officials generally are supportive and enthusiastic about the possible efficiencies
   that might be gained. Successfully implementing both should mirror processes seen only in
   more advanced countries, like the United States.




                                                                                                  7
Previous U.S. Government assistance2 and the $4.4 million spent by FRP II’s subcontractor
Nathan Associates Inc. have resulted in Jordanian Customs taking ownership of the successful
pilot initiatives and proving its commitment to change.

However, U.S. Government trade and economic development results and goals incorporated in
USAID/Jordan’s CDCS—such as increasing trade and investment (part of Intermediate Result
1, increasing private-sector competitiveness, which appears under Development Objective 1,
accelerating broad-based, inclusive economic development)—might be better achieved by
addressing the barriers to trade that are beyond Customs’ control. For example, Nathan’s
Survey of Trade Barriers and Facilitation Mechanisms in Jordan and Jordan Customs Time
Release Study identify some of those barriers. They included:

	 Other government agencies. Now that Jordanian Customs centers follow single-window
   procedures, other agencies—e.g., Jordan’s Food and Drug Administration, the Ministry of
   Agriculture—need to refine their risk profiling of imports to ensure timely processing of
   customs clearances and reduce the percentage of items they want to inspect.

	 Aqaba port operator and transport companies. In Aqaba, delays for importing goods are not
   entirely the result of Customs processes; they can be the result of inefficient processes with
   the port operator and transport companies responsible for moving cargo.

	 Airport operations. Bottlenecks at the airport customs center exist because Royal
   Jordanian—Jordan’s national airline—is responsible for loading and unloading imported
   cargo. Royal Jordanian can become more efficient by committing additional labor to this
   process.

Continuing the same type of assistance to Jordanian Customs would generate a diminishing
marginal return. Instead, assistance to Jordanian Customs could be scaled down or eliminated,
and resources redirected to the government agencies and private companies that are creating
trade barriers, thus increasing the likelihood of accomplishing the trade and economic
development objectives and goals.

Moreover, continued U.S. taxpayer funding for Jordanian Customs would exacerbate
dependence on USAID funding. For example, staff of USAID’s Access to Microfinance and
Improved Implementation of Policy Reform Program conducted a risk management workshop in
February 2001—more than 12 years ago. One of the attendees at that workshop was the head
of Jordanian Customs Risk Management. The same person is now the enforcement director at
the Amman Airport Customs Center, and through FRP II is still getting training on risk
management. Furthermore, a final report for the Achievement of Market-Friendly Initiatives and
Results Program, issued in July 2006, states that the program provided 60 reports with 555
recommendations on improvements to customs processes. Given this record, continued
assistance to Jordanian Customs might not be prudent.

Because there is less than a year left on DAI’s contract, we do not make any recommendations
here. Recommendation 3 on page 11 addresses this issue.

2
  Recent assistance includes Millennium Challenge Corporation’s Customs Administration Modernization
Program from 2007 to 2009; USAID’s Achievement of Market-Friendly Initiatives and Results Program’s
subcomponent on customs reform and modernization from 2003 to 2006; and Access to Microfinance and
Improved Implementation of Policy Reform from 1998 to 2002.


                                                                                                  8
USAID/Jordan’s Performance
Monitoring Was Inadequate
USAID/Jordan’s April 16, 2012, mission order on performance monitoring and evaluation
outlines the responsibilities of development objective teams—like the COR who is a member of
that team. Specific responsibilities include the development, implementation, and assurance
that performance management plans (PMPs) are used and data meet quality standards.

Data (e.g., performance indicators and intermediate results) in FRP II’s annual PMPs for Years
1 through 3 were not supported adequately. They were based primarily on testimonial evidence
such as e-mails from DAI employees. Ten of 13 indicators that auditors tested (out of 29) lacked
adequate supporting documentation. For example, for indicators measuring import and export
durations of goods being cleared through Customs for meeting the goal of trading across
borders, DAI simply reported results based on e-mail evidence from the subcontractor working
with Jordanian Customs. Additionally, for the indicator measuring tax administration efficiency,
DAI reported the number of active taxpayers versus tax administration employees. However, the
monitoring and evaluation specialist who recorded the result could not provide evidence
showing where the numbers of employees and taxpayers came from. Lastly, for the indicator
measuring the gap between forecasted and actual government revenues, DAI used statements
from its staff because the spreadsheet that would have provided the evidence was a confidential
Jordanian Government document.

Various factors led to the reliance on imprecise data.

1. 	 DAI adopted a new monitoring and evaluation system during the project’s implementation.
     When staff entered results into the new system, historical information and records were not
     entered and saved. Therefore, reported results for previous years could not be verified.

2. 	 Frequent turnover in the monitoring and evaluation specialist position precluded continuity;
     consequently, data collection and verification methods varied from year to year.

3. 	 The current FRP II monitoring and evaluation specialist was relegated to recording data in
     the PMP without independently collecting and verifying them.

4. 	 The COR did not document trip reports as required in the mission order. The reports could
     have helped mission staff verify results in the PMP.

5. 	 The COR did not document data quality assessments as required in the mission order.

As a result, although FRP II appeared to be meeting its planned indicators and intermediate
results, USAID/Jordan and DAI have not verified that the information was accurate.

In June 2013 USAID’s Bureau of Policy, Planning and Learning issued templates for mission
orders that standardized processes like performance monitoring; all missions were required to
adopt the standardized orders by December 10, 2013. The new mission order provides a clear,
detailed interpretation of multiple ADS policies regarding responsibilities and roles for proper
monitoring. To remedy the problems identified during FRP II, we make the following
recommendation.




                                                                                               9
    Recommendation 2. We recommend that USAID/Jordan adopt USAID’s standardized
    mission order on performance monitoring earlier than December 10, 2013, establish
    penalties for noncompliance, and inform (in writing and through training), all individuals
    responsible for performance monitoring of their responsibilities and the penalties for
    noncompliance.

Mission Did Not Document Project
Experience to Guide Design of
Follow-on Project
ADS 201.3.12, “Principles of Project Design,” identifies significant principles that development
objective teams should apply when designing new projects. It states, “Project designs should
not short-change rigorous analysis, and the collection of evidence from development experience
and lessons learned should be derived from well-documented, rigorous evaluations.”

The issue of evidence from development experience has great importance because staff in the
Economic Growth Office, which is overseeing implementation of FRP II, said they were
beginning to design a follow-on project. They planned to have the new project ready when FRP
II ends. However, evidence for the follow-on design was insufficient: no final report from FRP I
could be found, and the mission had not initiated a midterm evaluation for FRP II.

FRP I Final Report Missing. For FRP I, the contract required a final report to inform current
and future stakeholders about the accomplishments and lessons learned during the project.

The Economic Growth Office could not locate the final report in the contract files, which should
house all official records, according to ADS,3 or in the Development Experience Clearinghouse,
which is where ADS4 requires missions to send final reports.

Mission officials said they did not know why the report was not in the contract files or in the
clearinghouse. They said they were not sure whether it was even prepared.

Midterm Evaluation Not Initiated. According to USAID/Jordan’s April 16, 2012, performance
monitoring and evaluation mission order, “[E]valuations are required for all large projects
generally above a threshold value of $25 million.” The order ensures that USAID/Jordan will
“use evaluative approaches whenever necessary, including to inform strategic planning, prior to
designing new or follow-on projects, at the mid-term point of a project, and at the end of a
project.”

Mission officials also said that a midterm evaluation was planned for FRP II, but no scope of
work had been prepared as of July 22, 2013.

Because no official records of required contract deliverables were kept, the Economic Growth
Office does not have a record of important development experience gained from FRP I.
Additionally, the office has not conducted a midterm evaluation for FRP II, which has 1 year left
on a 5-year contract.


3
 ADS 502.3.2, “Official Records.”
4
  ADS 540.3.2.1, “Documentation That Operating Units Submit to the Development Experience
Clearinghouse.”


                                                                                                 10
Without documentation of development experience, the Economic Growth Office cannot apply
analytic rigor when designing the follow-on project. The best available evidence on what has
worked, what has not worked, what has been accomplished, and what could not be
accomplished under previous fiscal reform projects has not been preserved. Evidence of
development experience would help follow-on planners avoid duplicating previous activities and
prioritize future activities so that money is not wasted on approaches that will not work.

While this audit does not take the place of the required documents, it provides important
information for planners to consider in designing a follow-on project. The audit documents the
following problems with FRP II.

   Expanding work to multiple counterparts not originally in the project’s design (page 5). 

   Addressing multiple development objectives and intermediate results (page 5). 

   Continuing GFMIS implementation from the previous fiscal reform project (page 6). 

   Assisting the same Jordan Customs counterparts for more than a decade (page 7). 

   Not following good performance monitoring practices (page 9). 

   Missing a key final report (page 10). 

   Not initiating a timely midterm evaluation (page 10). 


Of particular value to planners is the development experience laid out in the finding on
assistance to Jordan Customs (page 7). USAID has been providing nearly continuous
assistance to this agency for 15 years.

The mission should undertake a larger fiscal reform evaluation or assessment to examine these
issues. The evaluation should look at the history of USAID/Jordan’s assistance in sectors that
FRP II currently is active in and then identify achievements, lessons learned, and best practices.
The evaluation also should outline a vision for how a follow-on project or other projects could
fulfill the mission’s new CDCS and the immediate and long-term needs of Jordan. Therefore, we
make the following recommendation.

    Recommendation 3. We recommend that USAID/Jordan perform an evaluation or
    assessment that covers the remainder of Fiscal Reform Project II and looks at previous
    assistance, accomplishments, and lessons learned from other USAID/Jordan projects to
    provide a vision and design for any new fiscal reform or related project.

Mission Did Not Manage Trade and
Investment Funds Effectively
Internal control activities include accurate recording of transactions. In addition, the Government
Accountability Office’s Standards for Internal Control in the Federal Government notes that
accurate recording of transactions is a control activity common to all federal agencies to assist
management decision-making.

Contrary to this guidance, USAID/Jordan did not effectively manage the funds it obligated or
disbursed for the trade and investment program area, causing transactions to be recorded
inaccurately.

First, it overobligated. Because the Economic Growth Office planned for a follow-on project that
did not start as planned, it used money reserved for that project for FRP II. A total of
$10.4 million was recorded as an obligation for the trade and investment program area. Nathan


                                                                                                 11
was awarded a subcontract to work with Customs, which is a trade-related counterpart, and the
work was valued at $6.7 million.

This caused FRP II to have $3.7 million in excess obligations not intended for trade and
investment activities (Table 1). The mission should have recorded only the subcontract value
and returned the excess money to the Middle East Bureau and asked that it be reprogrammed.
Or, if USAID/Jordan intended to increase trade-related activities, the COR should have asked
DAI to submit a revised work plan to include additional work with Jordan Customs and modify
the Nathan subcontract with a higher estimated cost. The COR did not do this.

                       Table 1. USAID’s Excess Obligation for the 

           Trade and Investment Program Area as of July 16, 2013 (Unaudited) 

                        Type of Transaction                  Amount ($)
                Obligations recorded by USAID for
                                                             10,398,739
                trade and investment program area
                Value of Nathan subcontract                   6,671,069
                Excess                                        3,727,670

Second, the mission did not record disbursements correctly. They should match the costs
incurred for the trade assistance provided. The mission did not include in DAI’s contract a
requirement to identify incurred costs by program area. Therefore, since the contract did not
have a budget with specific contracting line items separating activities by program area, the
company did not bill USAID by program area. Additionally, the COR administratively approved
each voucher for payment without identifying for the voucher examiner which program area to
charge. Because USAID’s payment process calls for disbursements to be matched against the
oldest obligation, the voucher examiner did just that and did not match the disbursement to an
obligation based on the nature of the expense—i.e., by program area. Consequently, the
mission reimbursed DAI $7.8 million for trade assistance that cost only $4.4 million (Table 2).

             Table 2. USAID’s Incorrect Disbursements Through May 20, 2013,
                 for the Trade and Investment Program Area (Unaudited)
                   Type of Financial Transaction             Amount ($)
                Disbursements recorded by USAID               7,766,070
                for trade and investment program
                area
                Costs incurred by Nathan for trade            4,427,150
                activities
                Amount incorrectly disbursed                  3,338,920

Because USAID/Jordan obligated excess funds and disbursed funds incorrectly for the trade
and investment program area, the financial information produced by USAID’s financial system is
not accurate and reliable for management decision-making. FRP II activities did not cost what
USAID paid for them. When USAID, or the Ambassador for Jordan for that matter, gives
approval for funding certain program areas, and then reports accomplishments from those
program areas in the operating plan and performance plan and report for Jordan, the Agency
has a responsibility to ensure that costs for activities being implemented are recorded
accurately in all financial transactions. Otherwise, financial information approved or distributed
by the Ambassador and mission director will be wrong or misleading to the users of the




                                                                                               12
information—i.e., Congress, Agency management, and U.S. taxpayers. To address this
problem, we make the following recommendations.

   Recommendation 4. We recommend that USAID/Jordan deobligate $3,727,670 of
   funds from the trade and investment program area that will not be spent for trade-related
   activities, and reprogram the funds as necessary.

   Recommendation 5. We recommend that USAID/Jordan implement procedures to
   allocate disbursements that match the nature of the expenses.




                                                                                               13
OTHER MATTER

Acquisition Regulations
Requirements Were Not Documented
Clearly
According to USAID Acquisition Regulation 706.302-70 (b)(3)(i), full and open competition does
not need to be carried out for:

       An award for which the Assistant Administrator responsible for the project or
       program makes a formal written determination, with supporting findings, that
       compliance with full and open competition procedures would impair foreign
       assistance objectives, and would be inconsistent with the fulfillment of the foreign
       assistance program.

The Agency did not follow this regulation when the mission justified the use of other than full
and open competition to amend its task order with DAI. The mission prepared an action
memorandum seeking $4.5 million for work on PPP projects in Jordan, increasing the task order
ceiling and expanding the statement of work. The mission requested approval to issue a no-bid
(sole-source) modification for this work under its FRP II task order, stating that the activities
were critical to achieving the economic growth goals and would be most cost-effective if
accomplished under the project.

The acting assistant administrator of the Middle East Bureau approved the justification but did
not document for the contract files how FRP II would be impaired or adversely affected. That
person has since retired, however, so the audit could not determine why the bureau believed
the program might be impaired or adversely affected and allowed the increase in the contract
ceiling.

The mission’s request was prompted by Jordan’s request for immediate assistance to increase
its capacity for developing, managing, and tendering public-private partnerships. However, as of
June 30, 2013, the project had not done any significant work on PPP activities as envisioned
because Jordan had not endorsed a law on public-private partnerships, and the unit responsible
for these activities in the Ministry of Finance was not fully organized or staffed. As a result, the
$4.5 million in increased funds will be used for other activities. Mission officials said this is
permitted because the other activities are within the scope of the contract.

Through July 16, 2013, USAID/Jordan disbursed $32.5 million for FRP II. Disbursements have
not reached the original contract ceiling of $38.5 million. USAID/Jordan could save the U.S.
Government $4.5 million if the COR required DAI to revise its final year work plan and budget in
line with the original contract ceiling. This would reduce the scope of activities, which
USAID/Jordan has already acknowledged is appropriate because only limited work is being
conducted on PPP activities. Because the mission’s contract with DAI is a time and materials
task order with a total estimated cost, USAID/Jordan is not required to spend every dollar
estimated in completing the scope of work if the work as planned does not transpire.




                                                                                                 14
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Jordan agreed with two recommendations, partially
agreed with one, and disagreed with two. We acknowledge management decisions on all
recommendations and final action has been taken on recommendations 4 and 5. A detailed
evaluation of management comments follows.

Recommendation 1. The mission stated that it is currently developing a sustainability plan in
the Year 5 project work plan, which will anticipate ending USAID’s involvement with GFMIS.
Based on the mission’s planned actions, we acknowledge that the mission made a management
decision. Final action will be taken when the Year 5 work plan is completed and the GFMIS
sustainability plan is approved and shared with the contractor around February 15, 2014.

Recommendation 2. The mission stated that USAID/Washington extended the deadline to
adopt the standardized mission orders until January 31, 2014. The mission stated it would need
the additional time to adapt the mission order for its particular environment.

While we acknowledge the mission has made a management decision and plans to adopt the
standardized mission order as required by USAID/Washington, the mission disagreed with the
second part of the recommendation—to establish penalties when individuals do not comply with
the new standardized order. It stated, “As for accountability and sanctions both the current
USAID/Jordan Mission Order and the proposed Standard Mission Order from Washington are
silent on the issue. We intend to proceed with the language in the Standardized Mission Order.”

Mission officials believe the kind of deviation recommended would be outside their purview to
establish policy. Our recommendation does not suggest that the mission address how to hold
officials responsible within the context of the mission order. History of this program shows that a
mission order on performance monitoring by itself does not guarantee compliance. Therefore,
we maintain our position that the mission identify and communicate to responsible officials what
the penalties are for not adhering to the mission order and inform them of this decision in writing
and through training.

Final action will be taken when the standardized mission order on performance monitoring is
adopted and the mission establishes penalties for noncompliance and holds individuals
accountable for the order.

Recommendation 3. The mission stated that it is in the final state of procuring a monitoring and
evaluation contract. Once completed, the mission will conduct a full performance evaluation
covering the remainder of the project, previous assistance accomplishments, and lessons
learned. Additionally, it has started a separate assessment that will assess the fiscal
environment and help inform the mission on the design of future fiscal activities. Based on the
mission’s planned actions, we acknowledge that the mission made a management decision.
Final action will be taken when the performance evaluation and fiscal environment assessment
are completed around February 28, 2014.




                                                                                                15
Recommendation 4. The mission disagreed with the recommendation and stated that the
additional obligation in the trade and investment program area cannot be deobligated because
the project plans to start working with the Ministry of Finance on PPPs. The mission states
PPPs would focus largely on promoting investment in Jordan and that $3.5 million of
incremental funding will target this area.

We disagree with the mission for the following reasons: lack of documentation on how the
technical assistance it plans on providing falls under the trade and investment framework; lack
of specificity on what types of activities it intends to fund in the final months of the project; and
lack of documentation supporting the $3.5 million it intends to spend on PPP activities.

The mission did not provide documentation on how technical assistance to the Ministry of
Finance’s PPP unit falls under trade and investment. The Foreign Assistance Standardized
Program Structure and Definitions for the trade and investment program area includes
subelements only for trade activities. Furthermore, the Foreign Assistance Dashboard
Categories and Sectors describe the trade and investment sector as “[s]upport[ing] the
institution of international agreements and trade facilitation techniques which allow countries to
exchange goods and services and make financial investments without fear of loss.”

It is important that the mission accurately report and fund projects using the foreign assistance
structure and dashboard because USAID is expected to respond and comply with the Office of
Management and Budget’s Bulletin No. 12-01, “Guidance on Collection of U.S. Foreign
Assistance Data.”

Contract modification number seven, which created PPP and energy objectives for the project,
mentions capital and infrastructure projects as the possible areas within the Ministry of Finance
where technical assistance for PPPs will be provided. If the mission plans to provide technical
assistance on public or private investment on capital and infrastructure projects, then it should
be reported and funded through the infrastructure program area. That program area is separate
from trade and investment, and has subelements for energy infrastructure and transport
infrastructure, which align better with the type of technical assistance DAI’s combined PPP and
energy team are actually providing. The dashboard describes the infrastructure sector as
“[s]upport[ing] the creation, improvement and sustainability of physical infrastructure, and
related services, in both urban and rural areas, to enhance the economic environment and
improve economic productivity.”

Additionally, the mission did not provide documentation on the type and cost of PPP technical
assistance during the final months of the project’s implementation. Through June 30, 2013, the
project had not done any significant work on PPPs. DAI’s team responsible for PPP activities is
also responsible for energy activities and has focused most of their efforts on energy issues
because there was no unit within the Ministry of Finance to work with on PPPs. Through
April 30, 2013, this team incurred approximately $1,423,951, according to DAI’s invoice
submitted for reimbursement to USAID/Jordan; the vast majority of costs were for energy-
related technical assistance.

The mission stated that it anticipated spending approximately $3.5 million on PPPs in its
response, but the documentation it provided did not discuss this amount. The only document
provided during the audit that discussed spending on PPPs was a negotiation memorandum on
the contract’s modification, which gave a cost analysis on PPP and energy combined. Because
$1.4 million has been spent already by the combined PPP and energy team, the maximum that
the mission could spend on PPP activities if it stopped all work on energy activities (as of


                                                                                                  16
April 30, 2013) would be $2.1 million, which is significantly less than the amount indicated in the
mission’s response of $3.5 million.

Because the mission has stated that it will not implement the recommendation, we consider final
action has been taken effective the date of this report.

Recommendation 5. Mission officials disagreed with the recommendation because they stated
that current disbursements match the nature of the expense and that the draft audit report did
not consider a second component to the trade and investment program area.

We disagree with the mission for the reasons indicated in the audit report and further discussed
in our response to Recommendation 4. DAI had not done significant work on PPP activities
through June 30, 2013. The majority of DAI’s technical assistance was focused on energy
issues—not trade and investment. Therefore, the mission is incorrectly recording disbursements
against obligations because disbursements do not match the nature of the expense. However,
because the mission has stated that it will not implement the recommendation, we consider final
action has been taken effective the date of this report.

Office of Management and Budget’s Bulletin No. 12-01 (mentioned above) establishes a policy
that states, “Data should be published with the level of detail, quality, and speed needed to
enhance government development planning and empower citizens to hold their government
accountable. This should include detail on where, when, on what, and to what effect (i.e. results)
assistance is planned, obligated, and spent.” By not correctly allocating disbursements that
match the nature of the expense, the quality and timeliness of the data and information on what
is planned, obligated, and spent for this project is not reliable.

Other Matter. The mission disagreed with our interpretation of Federal Acquisition Regulations
and USAID’s Acquisition Regulation. While the mission might have made a good faith effort to
comply with the regulations, no supporting documentation was provided by the USAID
Competition Advocate in Washington, D.C., or the mission to show that a foreign assistance
objective would be impaired, which is necessary to determine whether the mission was justified
in not using full and open competition when modifying the contract.

Additionally, we still encourage the mission to save up to $4.5 million because PPP activities did
not transpire and the mission has still not provided documentation that PPP activities will
commence during the final months of the contract.




                                                                                                17
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objective. We believe the evidence obtained provides that
basis.

The purpose of this audit was to determine whether USAID/Jordan’s FRP II was achieving its
main goals of macroeconomic stability and economic growth through improving the Jordanian
Ministry of Finance’s public financial management and fiscal policy.

The audit was performed in Jordan from June 30 through July 24, 2013, and covered activities
from the project’s start on November 1, 2009, through June 30, 2013. As of July 16, 2013,
approximately $40.7 million had been obligated and $32.5 million disbursed. The audit tested
these amounts by comparing financial data from the Agency’s accounting system with the
various vouchers submitted to USAID/Jordan for reimbursement. The audit used cumulative
totals from the May 2013 voucher, which totaled $32 million.

The team conducted site visits with counterparts in the Ministry of Finance, Ministry of Public
Sector Development, and Ministry of Energy and Mineral Resources. We assessed the project’s
significant controls: PMP, annual work plans, data quality assessments, annual and quarterly
reports, contract modifications, and approvals for other than full and open competition. We also
reviewed and assessed the internal controls in place to monitor project activities, including the
site visit reports, monitoring and evaluation data systems, and procedures.

Methodology
To answer the audit objective, we first identified the project’s main goals, core objectives, and
various component activities. We met with key personnel in Amman at the contractor’s office
and at the mission, and reviewed relevant documentation provided throughout the audit. We
gained an understanding of the project design and learned how USAID planned to monitor and
measure the results.

To analyze the performance of the project, the audit team selected a judgmental sample of
performance indicator data that DAI reported during Years 1 through 3 and verified supporting
documentation. We used judgmental sampling because some planned outputs, outcomes, and
results were modified each year or were not being met during fieldwork. The results of our
testing cannot be projected to the intended population. We also interviewed individuals from DAI
and the Jordanian Government, and we compared planned work plan activities with what was
completed and with the level of effort expended. We conducted interviews during site visits to
validate that activities were completed and to gain an understanding of how technical assistance
has advanced the reforms sought by the government.

We made site visits to Jordanian Customs facilities, which included headquarters, Amman
Airport, Customs Houses in Amman and Sahab, and Aqaba Customs Center. Interviews in



                                                                                              18
                                                                                 Appendix I


Amman were conducted at offices in the Ministry of Finance, GFMIS project management office,
Audit Bureau, Ministry of Public Sector Development headquarters and complaint management
unit, Income and Sales Tax Department, General Budget Directorate, Economic and Social
Council, Electricity Regulatory Commission, and the National Electric Power Company.




                                                                                         19
                                                                                       Appendix II



MANAGEMENT COMMENTS 



MEMORANDUM

TO:                           Catherine M. Trujillo, Regional Inspector General

FROM:                         Beth S. Paige, Mission Director /s/

DATE:                         November 20, 2013

SUBJECT:                      Audit of USAID/Jordan’s Fiscal Reform Project II
                              (Audit Report No. 6-278-14-00X-P)

REFERENCE:                    CTrujillo/BPaige Memo dated October 15, 2013


Thank you for providing the Mission with the opportunity to review the subject draft audit
report. Discussed below are the Mission’s comments on the recommendations and findings in
the report.

I. Response to Audit Recommendations

Recommendation 1. We recommend that USAID/Jordan require Development Alternatives Inc.
to implement an exit strategy and sustainability plan so the Ministry of Finance will be able to
continue the project management office without continued support from USAID/Jordan.
Mission Response: USAID/Jordan concurs with this recommendation and is aware that the
Government Financial Management Information System (GFMIS) needs to be wholly
sustainable by the Government of Jordan by the end of the project.
However, the Mission suggests deleting the language regarding the implementation of an exit
strategy given that the sustainability plan - currently under development - anticipates the ending
of USAID’s involvement upon the completion of the project.
Actions Planned: USAID/Jordan is currently developing a sustainability plan with the project
to be included in the 5th year work plan that is expected to be approved by the end of December
2013. At that time, the sustainability plan will be shared with and instructions provided to
Development Alternatives Inc. (DAI) for implementation.
Target Completion Date: February 15, 2014. The Mission deems that a management decision
has been reached on Recommendation 1.

                                                                                                 20
                                                                                        Appendix II




Recommendation 2. We recommend that USAID/Jordan adopt USAID’s standardized mission
order on performance monitoring earlier than December 10, 2013, establish penalties for
noncompliance, and inform (in writing and through training), all individuals responsible for
performance monitoring of their responsibilities and the penalties for noncompliance.
 
Mission Response: USAID/Jordan concurs with the recommendation to moving as quickly as
possible to the Standardized Mission Order. USAID/Washington has devised a series of
Standardized Mission Orders which Missions have been instructed to review and adapt to each
Mission’s particular environment and has estimated that the process will take each Mission
between 60 and 75 days to reasonably complete. Further, the December 10thdeadline was
extended by USAID/Washington to January 31, 2014 to take into account that adaptation period
when the emission of their templates was late in being sent to Missions. As for accountability
and sanctions both the current USAID/Jordan Mission Order and the proposed Standard Mission
Order from Washington are silent on the issue. We intend to proceed with the language in the
Standardized Mission Order. The Mission believes the kind of deviation recommended would be
outside the Mission’s purview to establish policy. Therefore, we urge the RIG revise this
recommendation to reflect Washington’s approach to managing compliance issues.

Actions Planned: USAID/Jordan concurs with USAID/Washington that it will take the Mission
the allowed time to properly adapt the Standard Mission Orders and the Mission is set to comply
with the deadline.

Target Completion Date: January 31, 2014. The Mission deems that a management decision
has been reached on Recommendation 2.

Recommendation 3. We recommend that USAID/Jordan perform an evaluation or assessment
that covers the remainder of Fiscal Reform Project II and looks at previous assistance,
accomplishments, and lessons learned from other USAID/Jordan projects to provide a vision
and design for any new fiscal reform or related project.

Mission Comments: USAID/Jordan concurs with this recommendation and acknowledges the
need to conduct a performance evaluation of the project.

Planned Action: The Mission is in the final procurement stages of a Monitoring and Evaluation
(M&E) contract. Upon awarding the contract, the Mission will conduct a full performance
evaluation of the project that will, among other things, cover the remainder of the project, look at
previous assistance accomplishments, and lessons learned. In addition, the mission has
contracted to have an assessment conducted of the project as well as of the fiscal environment to
help inform the Mission for the design of any future fiscal related activity. The assessment team
has started its work this month.

Target Completion Date: February 28, 2014. Based on the above, the Mission deems that a
management decision has been reached on Recommendation 3.



                                                                                                 21
                                                                                       Appendix II



Recommendation 4: We recommend that USAID/Jordan deobligate $3,727,670 of funds from
the trade and investment program area that will not be spent for trade-related activities and
reprogram the funds as necessary.

Mission Response: USAID/Jordan does not concur with this recommendation as it is based on
the assumption that the trade and investment program area for this project includes one
component only – namely the Nathan contract in the amount of $6.2M. It must be noted that the
trade and investment area for the project also includes the Public-Private Partnerships (PPPs)
component. In August 2012, the Mission approved an AAD Amendment that increased the
ceiling of the project by $4.5M. One of the primary purposes of this expansion was to establish a
unit in the Ministry of Finance that would assist the GOJ with creating new PPPs (Attachment
1). The unit has now been formally established and the director of the unit, reporting to the
Minister of Finance, has been appointed. On December 18, 2012, a modification was processed
increasing the ceiling of the project by $4.5M, obligating the funds, and extending the period of
performance (Attachment 2). It was anticipated that newly established PPPs would largely focus
on promoting investment in Jordan. Over $3.5M of the incremental funding action will target
the investment component of the trade and investment program area. Thus, the intended purpose
of the additional obligation is in line with trade and investment. As a result, funds cannot be
deobligated.

The Mission kindly requests the RIG consider deleting the recommendation.

Recommendation 5. We recommend that USAID/Jordan implement procedures to allocate
disbursements that match the nature of the expenses.

Mission Response: USAID/Jordan does not concur with this recommendation. As stated in the
Mission’s response to Recommendation 4, a second component to the trade and investment area
for this project was not considered in the report. Accordingly, the Mission does not need to
implement procedures to allocate disbursements as current disbursements match the nature of the
expenses.

Based on the above, the Mission kindly requests the RIG consider deleting the recommendation.

II. Mission Comments to “Other Matter: Mission Did Not Follow Requirements for Using
Other than Full and Open Competition” Statement.

While the Mission recognizes that there are issues with the regulation and its implementation at
the Agency level, the Mission disagrees with this observation in its entirety.

The title “Mission Did Not Follow Requirements for Using Other than Full and Open
Competition” of this observation is incorrect -- nowhere does this observation describe that the
Mission failed to follow either the Federal Acquisition Regulation (FAR) or the USAID
Acquisition Regulation (AIDAR).




                                                                                                   22
                                                                                       Appendix II


The process that the Mission must follow in the FAR is very specific: The contracting officer is
required to ensure that each sole source action is documented as a written justification (FAR
6.303-1) with specific content (FAR 6.303-2), that is approved in accordance with FAR 6.304.
The specific content mandated by FAR 6.303-2 requires the justification to cite the statutory
authority permitting other than full and open competition (FAR 6.303-2(b)(4)). The action
memorandum referenced in the observation (Action Memorandum to the Assistant
Administrator, September 11, 2011) cites the authority as AIDAR 706-302-70(b)(3)(i), “An
award for which the Assistant Administrator responsible for the project or program makes a
formal written determination, with supporting findings, that compliance with full and open
competition procedures would impair foreign assistance objectives, and would be inconsistent
with the fulfillment of the foreign assistance program.” In the AIDAR, the use of this particular
citation modifies the FAR requirement:

       AIDAR 706-302-70(c)(2): The contract file must include appropriate explanation and
       support justifying the award without full and open competition, as provided in FAR
       6.303, except that determinations made under 706.302-70(b)(3) will not be subject to the
       requirement for contracting officer certification or to approvals in accord with FAR
       6.304.

       AIDAR 706-302-70(c)(3): The authority in 706.302-70(b)(3)(i) shall be used only when
       no other authority provided in FAR 6.302 or AIDAR 706.302 is suitable. The specific
       foreign assistance objective which would be impaired must be identified and explained in
       the written determination and finding. Prior consultation with the Agency Competition
       Advocate (see 706.501) is required before executing the written determination and
       finding, and this consultation must be reflected in the determination and finding.

Note that there is no guidance, format, or content specified for the determination and finding.

In summary, then, the contracting officer must ensure (1) there is a written justification, and (2)
the justification contains the specific elements required in FAR 6.303-2. The justification does
not require contracting officer certification and does not have to be approved in accordance with
FAR 6.304. The Assistant Administrator must (1) make a formal written determination, (2) with
supporting findings, (3) stating that compliance with full and open competition procedures would
impair foreign assistance objectives, (4) identify the specific foreign assistance objective that
would be impaired, (5) explain this in the written determination and finding, and (6) document
consultation with the Agency Competition Advocate in the determination and finding. The
regulations separate the responsibilities of the Mission and the responsibilities of the Assistant
Administrator.

As a practical approach, the action memorandum referenced in the audit observation combined
the Mission and Assistant Administrator responsibilities into one document. The action
memorandum states in its subject line “Justification for Other Than Full and Open Competition”



                                                                                                  23
                                                                                        Appendix II


and on pages 3-9 details each of the 12 paragraphs required by FAR 6.303-2, following the
regulation in both form and format. Therefore the Mission fulfilled its specific regulatory
responsibilities and did follow the requirements for using other than full and open competition.

Regarding the Assistant Administrator’s requirements, the action memorandum documents
consultation with the Agency Competition Advocate (page 9) and states “Assistant
Administrator Determination” (page 10), which cover requirements (1) and (6). Page 4 states
“…which would undermine US foreign policy goals and objectives” – essentially the same as
stating it impairs foreign assistance objectives, given that foreign policy objectives and foreign
assistance objectives are required to be aligned. Therefore requirement (3) has been met. Page 5
of the memorandum contains several paragraphs of findings related to the decision; therefore
requirement (2) has been met.

The information for requirements (4) and (5) are contained on page 5 of the memorandum.
Given that there is no specific guidance on what constitutes a “Foreign Assistance Objective”, it
is difficult to ascertain at what level the objectives must be identified. The term is not used in
ADS 200 or 201, so it is unclear what constitutes a Foreign Assistance Objective. A type of
foreign assistance objective is mentioned in the second paragraph on page 5: “Increased use of
PPP’s fit squarely with the FRP II’s objective of improving public resource use, developing a
results oriented government and fostering stronger policy analytics of the Ministry of Finance.”
The associated findings are listed in the paragraph just above.

Therefore, the Mission disagrees that the Mission did not follow Agency regulations, and
furthermore does not agree that the Agency did not follow these regulations. It is reasonable to
observe that the information could have been presented with greater clarity and perhaps in
another format, but it is not a definitively supportable conclusion that the Agency failed to follow
the regulations as written. It is also reasonable to observe that Agency regulations could be
written with more clarity, using Agency specific terminology (such as “Development Objective”
rather than “Foreign Assistance Objective”, a term that is in the Country Development
Cooperation Strategy and that is clearly rationalized with Foreign Policy Objectives). Given the
magnitude of the assertion – and legal implications – that the Agency did not follow sole source
regulations, it seems odd to imply that the Acting Administrator’s retirement created a dead-end
for the audit. It would seem that the audit would have more thoroughly investigated how the
bureau treats justifications of these types: who supports the Assistant Administrator in providing
analysis of the justification, how the ADS requirements for the Assistant Administrator are
accomplished at the Bureau level, and the Agency Competition Advocate’s role in the process.

The third and fourth paragraphs of the observation are not related to the issue of sole source
justification and are therefore not properly identified under this topic. The observation that the
PPP activities are not implemented is a matter that occurred post-modification and is better
treated as a performance issue, although the observation seems to state the delayed performance
was excusable because of delays by the Government of Jordan. It is unclear what issue is being


                                                                                                 24
                                                                                      Appendix II


raised by this paragraph. It also contains a remark that “Mission officials say reprogramming is
permitted…” without any comment whether the Auditor believes this is appropriate. The remark
appears to be more innuendo than substantiated issue.

There may be some confusion as to the role that the Justification and Approval serves in later
determining the course and direction of the contract – it serves no purpose whatsoever in how the
contract is later managed. The purpose of the Justification and Approval is only to establish
whether a proposed modification should be sole-sourced. It does not justify the technical
requirement. The Assistant Administrator’s determination that a Foreign Assistance Objective is
impaired also does not justify the technical requirement, only whether a sole-source action is
justified. Technical requirements are justified through other processes. Therefore, a sole-source
justification cannot be used later to assess the technical direction of an activity, unless the
allegation is that the justification intentionally misinformed the approval authority.

In the last paragraph of the observation, the assertion that the U.S. could save $4.5 million by
revising the final year work plan is unsupported. It is not the general purpose of the Mission to
save money by simply not spending it. If that were the case, we could have saved $38.5 million
by not awarding the contract in the first place. The issue the audit appears to be raising is
whether the $4.5 million could be put to better use in some other manner, that the funds are being
wasted as currently applied in the program, or that the funds could not be expended within the
remaining life of the contract. However, all of these assertions would require a deeper analysis
than what has been provided in the audit. The audit does not conclude elsewhere that the project
is unsuccessful and should be curtailed.




Attachments:

   1- August 2012 AAD Amendment
   2- Contract Modification #7


cc: 	M/CFO/APC
     DMD: DBall
     EG: PBrunning
     OFM: RShire
     RLA: WLeishman
     RCO: BMcFarland
     OPM: TCornell



                                                                                               25
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
